                                         UNITED STATES OF AMERICA
                             FEDERAL LABOR RELATIONS AUTHORITY
                               OFFICE OF THE INSPECTOR GENERAL
                                           WASHINGTON, D.C. 20424-0001




SUBJECT: Federal Labor Relations Authority (FLRA) Inspector General Survey on FLRA
Management and Employee 2009 Concerns.

BACKGROUND: As a result of significant changes in the FLRA during the last administration
and with a new administration starting in FY 2009, the FLRA Inspector General conducted a
confidential survey regarding positive and negative issues and concerns of FLRA managers and
employees to provide the new Chair, FLRA with issues to address to help improve the FLRA. This
survey was started on March 22, 2009 and ended on May 29, 2009. This report contains excellent, as
well as problematic issues.

INTRODUCTION:

Under the last administration, the FLRA was diminished as a labor management adjudicatory
agency. Both mission related and administrative programs were diminished. Attorney positions and
administrative positions and staff were reduced as well. Many, employees who had been with the
FLRA since its creation in l978 left the FLRA during the last administration. Those that were able
to stay lost their authority. This included managers, as well as staff employees. The 2007 and 2009
Human Capital Surveys resulted in that the FLRA was the lowest of any Federal agency. Beginning
in FY 2009, with the new administration, FLRA management began focusing on improving the
agency, management levels and staff employees.

During the last administration, the FLRA failed to enter the 21st century. FLRA management and
employees were under extreme stress and could not address their concerns with management. Since
the FLRA environment has now changed, the FLRA Inspector General conducted a survey with
FLRA managers and employees to identify current concerns and positive accomplishments so that
senior FLRA managers can address these issues to quickly improve the FLRA environment. Just
about all FLRA managers and employees affirmed that the current FLRA Chair and Senior managers
are focused on improving the FLRA, its union, and employees.

The following information is a result of the FLRA Inspector General 2009 Survey for FLRA
management and employees to provide issues, concerns, as well as positive feelings so that senior
management can address all areas of concerns. The following information provides confirmed
information.

FLRA MANAGEMENT:

FLRA management believes that the current FLRA Chair is doing everything she can to place the
FLRA back on its path to once again accomplish its statutory role of providing leadership to the
FLRA sector labor management committees and administrative offices. The Chair, FLRA is
currently focusing on increasing staffing, restructuring the Regional Offices, updating internal
policies and procedures, improving information technology and has created a new website.

A few FLRA managers stated that the new administration (the Chair’s Office) is over controlling the
prerogatives and flexibility of lower managers.

Vacant positions that are advertised as temporary appointments reduce proper recruitment of
necessary FLRA employees. Vacant positions advertised at the proper levels help recruiting
professional and proper employees.

Some FLRA managers feel the FLRA needs to move from a pass/fail appraisal system to at least a 3
level system for proper performance identification for FLRA employees.

Contracting services for human resources, budget, and information technology with NBC need to be
addressed because they are not properly addressing their obligations.

Lack of FLRA’s General Counsel for almost 1 ½ years prevents Regional Offices from handling
unfair labor practice charge cases. Regional Offices have received many unfair labor practice
charges which they investigate and try to settle. Their representation work has increased. Once the
appointed General Counsel comes, the case intake will increase and backlogs are inevitable.

Currently, two tier pay systems, SES and GS-15, exist for FLRA Regional Directors for the same
positions. Currently there are two FLRA GS-15 Regional Directors in Denver and Chicago. There
are also two more GS-15s that are serving as Acting Regional Directors in Boston and Atlanta in
positions which are SES positions. Such details can only exist for 240 days after which there can be
120 day details.

Two FLRA Regional Directors have not had Deputy Regional Attorneys for over 4 years and have
been responsible for these two jobs for less pay and benefits then the SES Regional Directors
because they both are GS-15.

FLRA Regional Directors need an increased budget to hire additional attorneys and office managers
in order to handle their increased case loads once a General Counsel is appointed by the President.

Several Regional Directors stated that the FLRA should reinstate the dispute resolution role for
Office of General Counsel personnel to use in assisting parties do resolve their unfair labor practice
charges and representation cases.

FLRA Unfair Labor Practice Charge dismissed cases, which are appealed are currently handled by
other Regional Offices in a peer review process in addition to the Assistant General Counsel for
Appeals in FLRA Headquarters. If the new General Counsel turns all these appeals over to be
processed in Headquarters, the Assistant General Counsel for Appeals would require an additional
staff.

                                                  2
Fully successful FLRA SES managers should have received pay increases per OPM even though the
FLRA did not have a certified program. The 2009 republican Chair was the first to give any
increase to FLRA SES employees in many years.

During the last administration existing many FLRA instructions were cancelled. Some instructions
were created by contractors but no new instructions were implemented. Since there was also no
consulting with FLRA supervisors and managers, management suffered extensively.

In order to retain FLRA attorneys, qualified GS-13 professionals need to be promoted to GS-14 level
to remedy FLRA’s retention problem.

The current lack of FLRA FSIP Panel Members is causing a backlog in FSIP case processing and
will affect the timelines of case dispositions. It has also diminished administrative work because the
case loads are remaining historically low. However, these will pile up if a Panel is not appointed
soon and the statutory mission may not be performed properly.

FLRA’s Human Resources, Budget/Finance and Information Resource Management Division needs
more staff. Information Resource Management Division also needs an extreme amount of increased
budget ($150,000.00) for web site redesign.

FLRA’s Union President and employees want to have a good relationship and interaction with the
FLRA.

Just about all FLRA managers maintain open door policy and interact immediately with their
employees.

The FLRA has a very poor filing system and paper files can not be converted to electronic files.

Since 2001 no new employee orientations have been conducted.

Previous administration leader’s reclassification of FLRA positions to lower grade levels has been
abandoned by current management.

FLRA EMPLOYEES:

Staff shortages have severely affected FLRA employees. Issues related to staffing levels have
diminished the capability of many employees to perform their jobs properly. Many have conducted
work senior to their levels, as well as, in addition work lower than their level because of the
reduction of necessary staff under the last administration. There has been an inherent inequity
between the new staff and experienced staff.

There is a lack of supporting administrative policies providing coherent direction of planning
activities for FLRA employees, as well as management.

                                                  3
A few FLRA employees do not have daily interaction with their supervisors while most do. If
employees want to speak with their supervisors, most get immediate responses.

Some FLRA employees who conduct their jobs well have not received bonuses or awards during the
past year. However, a significant amount did.

Many FLRA employees have not received proper training over the past year, as well as during the
prior administration.

Currently, the FLRA has unreasonable management and leadership expectations to meet deadlines
without adequate staff.

Because of FLRA staff shortages, some employees do work that should be assigned to lower-grade
level employees who are not onboard to do the work.

FLRA employees who are using the E2-Solutions Travel system for travel are having problems and
think this system should be terminated and replaced with a better workable system. They stated that
E2 Solutions Travel is time consuming (about 1 hr. to obtain travel arrangements and at least 1 hr. to
enter information after return.) Many employees felt that the previous National Travel System was
much more efficient than E2-Solutions Travel.

Several FLRA Regional Office employees felt that policy should be revised so that parties primary
requirement is to submit all necessary evidence when they file an unfair labor practice charge.

Some FLRA Regional Office employees are permitted to work from home at least one day during
the two week pay period. A FSIP employee works at home one day per week. These individuals do
telework. Many FLRA employees do not have high speed internet connections at home. They can
receive e-mails but cannot access files on the F drive.

FLRA Regional Offices have technology issues including slow computers and some have
inconsistent phone service. One Regional Office recently lost browser capability on Oracle. The
lack of a complete representation database so that all representation work can be shared among the
Regional Offices has affected their ability to perform their jobs properly. This is a problem, since
work is often transferred and certain decisions and certifications affect bargaining units in all
regions.

The movement of FLRA Regional Offices’ computer servers to headquarters caused the network not
to work properly in the field. Also their desktops and laptop computers, copiers and fax machines
are old and failing.

One FLRA Regional Office has not had a Secretary/ Office Assistant for several years. Some offices
used to have two and now only have one Secretary/Office Assistant. Since their administrative work
has not diminished, several attorneys have been doing administrative work in addition to case
processing.

                                                  4
The continuing inability to provide parties with the Statute and Guide to the Statute (which have not
been printed for a long time) affects the Regional attorney’s ability to assist and educate parties.

Increase of travel budget to enable FLRA mission related attorneys and employees to personally
meet with parties will increase the potential for voluntary resolution of disputes. Right now, travel
capabilities are low but have been increased.

The increase of resources and funding that has become available during this administration has
definitely improved FLRA job conduct.

The current FLRA administration has increased the employees’ work. Some employees stated that
the previous administrations higher level supervisors developed systems that limited their scope of
job activities and they would really like to know what they are allowed to do.

Lack of training and consistency in case instruction has complicated handling cases at times.
Training during the past administration was very limited but now training has become available and
proper training related to jobs will be available to FLRA employees.

Several relatively new employees stated that multiple changes and/or moves made it hard to get
settled.

Some employees have had trouble obtaining and keeping paper products like post-its and note pads
stocked. Many employees stated they needed basic services and equipment to do their work.

Several employees stated that their furniture and chairs were old, un-ergonomic and uncomfortable
to perform their work.

Management is focused on updating mission related attorney positions but is not yet focusing on the
career advancement of administrative employees.

A few FLRA employees feel that the FLRA has changed for the worse since one Authority
supervisor’s tone is cold and off putting. These employees feel that some managers are not focusing
on updating or improving the FLRA and are not aware of management’s direction. They also felt
that their supervisors were knowledgeable but were not good, nor trained to be a leader. These
employees felt their co-workers were more helpful then their managers.

The lack of scanning software is unavailable and is needed by several FLRA employees at or near
their computers.

Several employees stated that the FLA is spending too much money on Information Technology
contractors.

Although many FLRA employees have been provided a 45 minute to 1 hr lunch, there are still some
employees whose managers still require employees to take ½ hr lunches and take leave if it is more.
Poor telephone service included the loss of messages from external, as well as internal sources.
                                                 5
FLRA employee contact information should be placed back on the public website (names, titles,
phone numbers, extensions and e-mails to help customers contact the appropriate FLRA people.

NBC human resources payroll contractors are only in the office one day per week. Several
employees who have tried to contact them by phone or e-mail on the other days have had difficulty
reaching them.

Several FLRA case handling employees at a GS-13 and 14 levels stated they perform work of the
same complexity as a GS-15 and SES also perform.

Several FLRA employees of the two Authority Members staff are having difficulty working for their
supervisor and feel their morale has been lowered. Several employees are having problems with
their work because they are not getting proper information from their supervisor and have not had a
staff meeting for several months. They have affirmed that if they contact their supervisor, the
supervisor is available and immediately will respond.

Several FLRA employees have to perform additional duties related to the mentoring/supervising
because of less senior employees without being compensated.

A few attorneys stated that they prepare their case and their supervisors take over the case, delete a
lot of creation and then send the case back without information regarding the deletion. Most FLRA
employees have good interaction with supervisors. A few do not.

Performance information is often received by FLRA employees. Most employees receive their
performance information quarterly or once or twice a year. Some are provided it weekly and even
daily by their supervisor. Most employees who have good performance receive bonus awards.
Some receive time off awards. Employees who received awards felt appreciated and justly
compensated for hard work.

Many FLRA employees work through lunch hours because senior leadership does not understand
that employees need some down time.

Lack of travel funds reduces proper face-to-face interactions with FLRA Regional Office attorneys
as well as the FLRA Inspector General. However, there were a few attorneys who felt their work
had improved by not traveling to conduct Unfair Labor Practice Charge investigations and doing it
by telephone was better.

Several employees, who have been working for the FLRA for many years, miss having the Agency
newsletter.

Most FLRA employees feel that management is focused on updating and improving the FLRA.
They are happy about the notification of events, Holiday parties and several staff appreciation
luncheons by supervisors. They also feel that management has improved the morale by improving
communication and focusing on employees.
                                                  6
Several FLRA attorneys stated that the FLRA statute needs to be more effective and the FLRA
should engage Congress and the President to update/improve FLRA’s enforcement tools to improve
Federal labor management relations and help parties to make efforts to avoid the appearance of
violating the statute.

THE FLRA UNION OF AUTHORITY EMPLOYEES:

The FLRA Union of Authority Employees (UAE) which was diminished during the last
administration has been restored by the current Chair, FLRA. The UAE has made suggestions to
management for rebuilding the FLRA and its employees in the future. These suggestions include
FLRA mission and goals, communication, labor management relations, staffing and classification
and budget matters.

The FLRA UAE is very pleased with the positive direction that current leaders have taken in
resuming the FLRA and its federal labor management program. The UAE is regularly informed of
management’s initiatives and given an opportunity for comments and input.

The FLRA UAE stated that new and creative goals for the FLRA need to be developed to improve
the FLRA and enhance customer relationships, as well as FLRA employee relationships. The FLRA
must become the go to group for Federal managers and unions regarding labor relations issues.

FLRA management has reopened its dialogue with the UAE and all FLRA employees. Questions
asked or issues raised by the UAE are addressed by management in a timely fashion.

The UAE is currently working with FLRA management to resolve six grievances pending arbitration
that were ignored by the previous leadership administration.

The UAE stated that FLRA strategic planning should involve key players at all levels of the FLRA
and should include performance goals, information technology issues, equipment issues, succession
planning, and preparation for newly hired employees (training, mentoring etc.)

The UAE suggests that materials used by FLRA’s customers should be posted on the FLRA website
and be updated to be user friendly.

The UAE has requested a workgroup for information technology programs. The FLRA and UAE
have established a workgroup to jointly determine how to increase telework.

FLRA should engage in bargaining over FLRA initiated changes, respond to bargaining requests and
grievances and negotiate a new collective bargaining agreement.

The UAE is now being kept informed of FLRA budget issues.

IMPORTANT ISSUES:

                                               7
FLRA General Counsel, third Authority Member and FSIP Panel are currently not on board and
need to be appointed as soon as possible.


Employee morale and the FLRA’s image need to be improved and should be a priority.


Empowerment of employees and indicated trust for employees for doing their jobs needs to be
addressed by all FLRA managers.


Distribution of workload to employees needs to be assigned properly.


Concerns raised by the Union need to be addressed.


Increased budgets for mission related and administrative programs need to be addressed.


The FLRA should go back to being more than just an enforcement agency and focus on helping to
improve labor relations.


Increased amount of staff for management is needed to properly conduct their responsibilities.


Regional Directors who were hired at a GS-15 level instead of an SES position during the past
administration should be updated to SES levels as soon as possible. (RD positions were classified at
the SES level for over 25 years until 4 years ago.)


Guidance/policies and instructions, removed from the Office of General Counsel by the previous
General Counsel and not replaced, need to be created and issued as soon as possible.


NBC contractors for the FLRA for FLRA’s human resources budget/finance and information
technology services for FLRA employees, often negatively affect employees.



High speed scanner and connection to main servers of the FLRA Regional Offices do not exist and
need to be provided.


Complete representation databases are required for the FLRA Regional Offices.
                                               8
Compensation for upgraded work being performed constantly should be considered by supervisors.


E-2 Solutions travel program is not considered helpful by most FLRA employees.


Management needs to address current employee retention and upgrade jobs which are currently
being performed by FLRA employees.


Update the FLRA statue, policies and instructions.


Update/replace FLRA computers.


Involve all managers in strategic planning.


POSITIVE ISSUES THAT CURRENT MANAGEMENT IS PROPERLY ADDRESSING:


1. The FLRA Chair is engaging management and employees in discussions and informing them
what is going on in the FLRA. On May 20, 2009, the Chair conducted a Town Hall Meeting for all
FLRA managers and employees which was the first such meeting in 30 years. The Chair provided
FLRA managers and employees with information regarding the important changes that were being
made in the FLRA and how the FLRA will be moving forward. The major aspects that will be
addressed now are budget increases, staffing increases, mission performance, employee, training
satisfaction and morale, technology, strategic planning relationship building and communication.


2. The FLRA is committed to restoring General Counsel guidance to the FLRA website.


3. The FLRA is reaching out and asking parties to let the Authority know if they no longer have an
interest in their pending cases.



4. The FLRA is working on increasing the budget long term to address FLRA’ statutory and
administrative requirements.



5. The FLRA authorized the creation of a new e-mail which lets customers contact the FLRA
                                            9
directly on-line.


6. The FLRA is re-establishing the FLRA Union’s authority.


7. The FLRA is working on upgrading GS-13 to GS-14 attorneys when qualified.


8. The FLRA is hiring more employees for administrative programs.


9. FLRA Authority, General Counsel, FSIP and Case Intake provide training to their parties to
further their knowledge in filing cases with the FLRA.


10. The FLRA has reinstated the FLRA newsletter for employees and external individuals by
placing it on the FLRA website.


CONCLUSION:


It has been almost 9 months since the new administration, and the FLRA has completely focused on
improving the agency, union and all employees. Almost all FLRA managers and employees feel
many actions have been positively addressed by management. Some of them still have some serious
concerns. All employees and many parties appreciate the comeback of the FLRA. The current, new
FLRA Chair is heading the FLRA in the right direction. Current FLRA management and employees
are dedicated to updating and improving the FLRA. Management has reinvolved the FLRA Union
in the decision making process and there is an effort going to make a job career ladder. Funding for
almost everything has been approved and travel restrictions have been dropped. The relationship
between the FLRA management and its employees also helps improve the Government, as well as
the FLRA. FLRA’s customers already appreciate the more interactive FLRA approach with them.
The recreation of the FLRA is as important as the substantive work of various agencies and our
agency, the FLRA, already is helping to make the Government working environments more
productive.


The following recommendations address the FLRA management and employee concerns which were
affirmed by other managers and/or employees during the survey. Although there are a lot of
recommendations from this survey and management may already be addressing some of them, these
are the interests/concerns of FLRA management and employees as stated in the 2009 Inspector
General Survey.
                                                10
RECOMMENDATIONS:


Since this 2009 Inspector General Management and Employee Survey revealed an extensive amount
of items that need to be addressed to improve the FLRA and have it properly address its statutory
mission and administration programs, the Inspector General recommends that the Federal Labor
Relations Authority address the following issues during the remainder of 2009 and 2010.


Recommendation 1


Management needs to check all employees’ office furniture, chairs and file cabinets to make sure
they are working properly, have enough work space and have working telephones, (printers, fax and
scanners), computers, medical provisions, and the proper amount of equipment to conduct their jobs.


Recommendation 2


Increase the FLRA mission related(Authority, Office of General Counsel, FSIP, and Collaboration
and Alternative Dispute Resolution Office) administrative offices and Office of Inspector General’s
staffs of FLRA, as soon as mission related and financially possible.


Recommendation 3


Increase budgets in 2010 and 2011 so that FLRA mission related employees and Inspector General
can travel and interact with parties in person and attorney positions can be updated when necessary
to represent the actual level of work they are conducting.


Recommendation 4


Continue management interaction with the FLRA Union and address its concerns regarding the
Agency Union and employees, as soon as possible.


Recommendation 5


Increase necessary administrative staff to reduce or eliminate the current extensive need for
contractors for Human Resources, Financial/Budget and Information Technology.
                                             11
Recommendation 6


FLRA needs to address and update its computer systems for employees. Regional Offices should
maintain their own servers to eliminate problems which began when servers were removed during
the last administration. Complete representation databases are necessary so that all of the
representation work can be shared by the regions. Proper teleporting and policy needs to be
established so that employees who work from home are working properly. Updated software will be
needed to conduct electronic case management. Also, FLRA employees who travel to conduct
investigations should have smaller, lighter laptops, travel printers for affidavits and communication
devices to reach supervisors and/or parties while traveling.


Recommendation 7


Deputy Regional Directors should be provided for the Boston, Denver, Chicago and Atlanta
Regional Offices. Deputy Directors are needed to properly review the work of the office and
provide assistance for their work which includes proofreading and editing documents. Upgrade the
Regional Directors who were hired as GS-15s to the SES level.


Recommendation 8


Modify the current electronic travel system by providing a travel judges and attorneys contact on-
line if there are problems (which often are), while the individual is traveling.


Recommendation 9


Human Resources should establish policy/procedures which require the same amount of
performance interaction and submission paperwork for FLRA employees from their supervisors for
every year. All employees should be required to sign their performance appraisals, as well as the
supervisor.


Recommendation 10


Require FLRA management to meet no later than monthly with their employees to keep them
completely informed. They should also obtain their employees’ comments for issues related to the
                                              12
FLRA and provide their comments to senior management and the Chair, FLRA.


Recommendation 11


FLRA management should permit all FLRA employees, not just some, to work from home at least
once (or several times) every pay period if they request to do so and if they have the proper internet
to access FLRA.


Recommendation 12


FLRA should provide all new supervisors training relating to leadership, performance management,
all administrative and FLRA statute requirements as well as properly handling and interacting with
their employees.


Recommendation 13


Although Headquarters phone systems have been updated, but the FLRA needs to address the phone
systems in the Regional offices which are causing almost daily problems in performing work.
Provide the Staff with cell phone minutes to compensate for the use of personal equipment resulting
from the lack of proper phone service.


Recommendation 14


FLRA Federal badges need to be updated and provided to all FLRA employees.


Recommendation 15


FLRA should provide more free training to parties on the statute and labor related topics. During the
next year, the Chair should hold an FLRA Conference in Washington D.C. for all employees to
provide communication, administrative information, policy information and training sessions
regarding new FLRA programs. Orientations for new employees should be conducted once or twice
a year.


Recommendation 16

                                                 13
When the FLRA General Counsel is appointed by the President, he/she should discuss Office of
General Counsel issues regarding representation cases and unfair labor practice charge case
submissions and Office of General Council regulations that need to be updated and addressed with
Regional Directors, as well as the Chair, FLRA.


Recommendation 17


Management needs to focus on career advancement for FLRA administrative employees.


Recommendation 18


FLRA employee contact information should be placed back on the public website names, titles,
phone numbers, extensions and e-mails to help customers contact the appropriate FLRA people.


Recommendation 19


The FLRA should create a certified program for pay increases for SES successful employees.




Date Issued: June 10, 2009




                                              14
